Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       COLORADO CLAIMED
     UNALLOWABLE MEDICAID
    INPATIENT SUPPLEMENTAL
           PAYMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        April 2014
                                                      A-07-13-04206
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Colorado claimed $2.7 million in unallowable Medicaid inpatient supplemental payments
during Federal fiscal year 2012.


WHY WE DID THIS REVIEW

Supplemental Medicaid payments to institutional providers for Medicaid services are based on
upper payment limits. During our audit period (Federal fiscal years (FYs) 2010 through 2012),
Colorado received almost $900 million in Federal reimbursement for its inpatient supplemental
payment programs. The amount of these payments, combined with the fact that Colorado had 13
different inpatient supplemental payment programs with varying and complex calculation
methods, made these potentially high-risk payments.

The objective of this review was to determine whether Medicaid inpatient supplemental
payments that the Colorado Department of Health Care Policy and Financing (State agency)
made to Colorado Medicaid hospitals (providers) during FYs 2010 through 2012 and for which it
claimed Federal reimbursement were in accordance with Federal and State requirements.

BACKGROUND

In Colorado, the State agency is responsible for administering the Medicaid program. It does so
in accordance with a Centers for Medicare & Medicaid Services (CMS)-approved State
Medicaid plan (State plan). A CMS-approved State plan describes the supplemental payments
established by the State and specifies which providers are eligible to receive supplemental
payments and what categories of service are covered. Any material changes a State makes in its
State plan must be submitted to CMS for review and approval as a State plan amendment before
the State can implement those changes. Supplemental payments can be made to providers on an
inpatient basis.

The State agency uses “Medicaid days” as part of its calculation of supplemental payments.
Essentially, a Medicaid day is a day of inpatient services provided to a Medicaid recipient.

The State agency claimed $1,585,003,459 ($877,749,215 Federal share) of Federal
reimbursement for 13 different Medicaid inpatient supplemental programs during FYs 2010
through 2012. We judgmentally selected and reviewed the five Medicaid inpatient supplemental
payment programs with the largest payment totals during this time period. For these five
programs, the Medicaid inpatient supplemental payments to providers for which the State agency
claimed Federal reimbursement during FYs 2010 through 2012 totaled $1,457,319,962
($807,923,956 Federal share).




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                        i
WHAT WE FOUND

During our audit period, the payments for four of the five Medicaid inpatient supplemental
payment programs reviewed were in accordance with Federal and State requirements. However,
for FY 2012, the Medicaid inpatient supplemental payments that the State agency made to
Colorado Medicaid providers for one of the five programs (called the Metropolitan Statistical
Area Medicaid inpatient supplemental payment program (the program)) were not always in
accordance with Federal and State requirements. Colorado’s CMS-approved State plan specified
the supplemental payments for the program, effective as of October 1, 2010, as $600 per
Medicaid day; however, beginning October 1, 2011, the State agency made payments of $650
per Medicaid day, which CMS had not approved, for 106,382 Medicaid days. As a result, the
State agency made overpayments to providers totaling $5,319,100 ($2,659,550 Federal share).

The payment amounts for the program for FYs 2010 and 2011 had been specified in the
CMS-approved State plan. No discrepancies regarding the payments and reimbursements during
these 2 FYs came to our attention during this review.

The error for FY 2012 occurred because the State agency did not ensure that the payment
amounts authorized in the State plan for the Medicaid inpatient supplemental payments program
were the actual amounts used to make payments.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,659,550 to the Federal Government,

    •   determine the amount that the State agency incorrectly paid after our audit period in
        program funds at $650 per Medicaid day and refund that amount to the Federal
        Government, and

    •   ensure that the payment amounts specified in its CMS-approved State plan are the
        amounts used to make payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and described corrective actions that it had taken or planned to
take. Additionally, the State agency said that it had calculated an overpayment of $5,409,000
($2,704,500 Federal share) for the FY subsequent to our audit period and would refund the
Federal share within 1 year of the issuance of our final report. We verified that the State agency
correctly calculated this overpayment.




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                         ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicaid Program ..........................................................................................1
                 Colorado Medicaid Program ..........................................................................1
                 Medicaid Inpatient Supplemental Payments ..................................................2

           How We Conducted This Review..............................................................................2

FINDING ...............................................................................................................................2

RECOMMENDATIONS .......................................................................................................3

STATE AGENCY COMMENTS ..........................................................................................4

APPENDIXES

           A: Audit Scope and Methodology ............................................................................5

           B: State Agency Comments ......................................................................................7




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                                                                    iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Supplemental Medicaid payments to institutional providers for Medicaid services are based on
upper payment limits (UPLs) (42 CFR §§ 447.272 and 447.321). During our audit period
(Federal fiscal years (FYs) 2010 through 2012), Colorado received almost $900 million in
Federal reimbursement for its inpatient supplemental payment programs. The amount of these
payments, combined with the fact that Colorado had 13 different inpatient supplemental payment
programs with varying and complex calculation methods, made these potentially high-risk
payments.

OBJECTIVE

Our objective was to determine whether Medicaid inpatient supplemental payments that the
Colorado Department of Health Care Policy and Financing (State agency) made to
Colorado Medicaid hospitals (providers) during FYs 2010 through 2012 and for which it claimed
Federal reimbursement were in accordance with Federal and State requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State Medicaid plan (State plan). Although the State has considerable flexibility
in designing and operating its Medicaid program, it must comply with applicable Federal
requirements.

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter, and CMS uses it to reimburse States for the Federal share of Medicaid expenditures.
The amounts reported on the CMS-64 report and its attachments must be actual expenditures and
be supported by documentation.

Colorado Medicaid Program

In Colorado, the State agency is responsible for administering the Medicaid program. The
amount that the Federal Government reimburses to the State agency, known as Federal financial
participation or Federal share, is determined by the Federal medical assistance percentage
(FMAP), which varies based on a State’s relative per capita income. The State agency’s FMAP
rates ranged from 50.00 to 61.59 percent during FYs 2010 through 2012.




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                     1
The State agency uses “Medicaid days” as part of its calculation of supplemental payments. The
State agency defines Medicaid days as including “… Medicaid fee for service days, Medicaid
managed-care days, and days where Medicaid is the secondary payer (Medicare/Medicaid dually
eligible days and Medicaid and other third party coverage days)” (Colorado State Plan,
Attachment 4.19A, page 55, section 4.b). Essentially, a Medicaid day is a day of inpatient
services provided to a Medicaid recipient.

Medicaid Inpatient Supplemental Payments

Supplemental payments can be made to providers on an inpatient basis.

A CMS-approved State plan describes the supplemental payments established by the State and
specifies which providers are eligible to receive supplemental payments and what categories of
service are covered. Any material changes a State makes in its State plan must be submitted to
CMS for review and approval as a State plan amendment before the State can implement those
changes (42 CFR § 430.12(c)(1)(ii)).

HOW WE CONDUCTED THIS REVIEW

The State agency claimed $1,585,003,459 ($877,749,215 Federal share) of Federal
reimbursement for 13 different Medicaid inpatient supplemental programs during FYs 2010
through 2012. We judgmentally selected and reviewed the five Medicaid inpatient supplemental
payment programs with the largest payment totals during this time period. For these five
programs, the Medicaid inpatient supplemental payments to providers for which the State agency
claimed Federal reimbursement during FYs 2010 through 2012 totaled $1,457,319,962
($807,923,956 Federal share).

We reviewed the State agency’s calculation of overpayments identified in its review of Medicaid
inpatient supplemental payments for reporting periods after our audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDING

During our audit period, the payments for four of the five Medicaid inpatient supplemental
payment programs reviewed were in accordance with Federal and State requirements. However,
for FY 2012, the Medicaid inpatient supplemental payments that the State agency made to
Colorado Medicaid providers for one of the five programs (called the Metropolitan Statistical
Area Medicaid inpatient supplemental payment program (the program)) were not always in
accordance with Federal and State requirements.


Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                      2
Section 1903(a)(1) of the Social Security Act authorizes payment to the States of an amount
equal to the FMAP of the total amount expended during the quarter as medical assistance under
an approved State plan.

The Colorado State plan, Attachment 4.19A, page 54, section 3, states:

        The Metropolitan Statistical Area Supplemental Medicaid payment is a
        prospective payment calculated using historical data, with no reconciliation to
        actual data for the payment period. For each hospital, this payment shall be
        calculated on a per Medicaid day basis as follows…. b. Effective October 1,
        2010, qualified hospitals [providers] shall receive $600 per Medicaid day.

Contrary to Colorado’s CMS-approved State plan, beginning October 1, 2011, the State agency
made payments of $650 per Medicaid day, not $600 per Medicaid day, for 106,382 Medicaid
days. As a result, the State agency made overpayments to providers totaling $5,319,100
($2,659,550 Federal share).

The payment amounts for the program for FYs 2010 and 2011 had been specified in the
CMS-approved State plan. No discrepancies regarding the payments and reimbursements during
these 2 FYs came to our attention during this review.

The error for FY 2012 occurred because the State agency did not ensure that the payment
amounts authorized in the State plan for the Medicaid inpatient supplemental payments program
were the actual amounts used to make payments.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,659,550 to the Federal Government,

    •   determine the amount that the State agency incorrectly paid after our audit period in
        program funds at $650 per Medicaid day and refund that amount to the Federal
        Government, and

    •   ensure that the payment amounts specified in its CMS-approved State plan are the
        amounts used to make payments.




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                         3
                                 STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and described corrective actions that it had taken or planned to take.
Additionally, the State agency said that it had calculated an overpayment of $5,409,000
($2,704,500 Federal share) for the FY subsequent to our audit period and would refund the
Federal share within 1 year of the issuance of our final report. We verified that the State agency
correctly calculated this overpayment. The State agency’s comments are included in their
entirety as Appendix B.




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                         4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency claimed Federal reimbursement for Medicaid inpatient supplemental payments
to providers totaling $1,585,003,459 ($877,749,215 Federal share) during FYs 2010 through
2012. Of Colorado’s 13 Medicaid inpatient supplemental payment programs, we judgmentally
selected the 5 programs with the largest payment totals during this time period. Accordingly, we
reviewed Medicaid inpatient supplemental payments to providers totaling $1,457,319,962
($807,923,956 Federal share) for which the State agency claimed Federal reimbursement during
FYs 2010 through 2012. The $1,457,319,962 constituted approximately 92 percent of the
$1,585,003,459 claimed.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the State agency in Denver, Colorado, in July 2013.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Federal laws, Federal and State regulations, and the relevant portions
        of the CMS-approved Colorado State plan;

    •   held discussions with officials from CMS and the State agency to gain an understanding
        of Colorado’s inpatient supplemental payment programs;

    •   reconciled inpatient supplemental payments reported on the State agency’s CMS-64
        reports for FYs 2010 through 2012 to the State agency’s supporting documentation;

    •   verified the State agency’s UPL1 calculations and the State agency’s inpatient
        supplemental payments calculations;

    •   verified whether the totals of the State agency’s inpatient supplemental payments
        exceeded the totals of the State agency’s UPLs for the five supplemental payment
        programs we selected for review;

    •   reviewed five judgmentally selected Colorado inpatient supplemental payment programs
        to determine whether the State agency correctly made payments under those programs;

    •   determined the total overpayments made by the State agency and the Federal share of
        these overpayments;
1
 A UPL is the ceiling on Federal matching funds for Medicaid payments and is based on an estimate of what
Medicare would pay for comparable services (42 CFR §§ 447.272 and 447.321).


Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                                     5
    •   discussed the results of our review with State agency officials on September 23, 2013;
        and

    •   reviewed the State agency’s calculation of overpayments identified in its review of
        Medicaid inpatient supplemental payments for reporting periods after our audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Colorado Medicaid Inpatient Supplemental Payments (A-07-13-04206)                        6
                                         APPENDIX B: STATE AGENCY COMMENTS 





                                       COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                                       1570 Grant Street, Denver, CO 80203-1818 • (303) 866-2993 • (303) 866-4411 Fax
                                        John W. Hicken looper, Govemor • Susan E. Birch MBA, BSN, RN, ExeOJtive Director




                February 28, 20 14


                Mr. Patrick J. Cogley
                Regional Inspector Ge neral for Audit Services
                Department of Health and Human Services
                Office oflnspector Genera l
                Office of Audit Services
                Region VII
                60 1 East 121h Street, Room 0429
                Kansas City, MO 64 l 06

                RE:          Report Number A-0 7 -1 3-04206

                Dear Mr. Cogley:

                Enclosed is the Department of Health Care Policy and Financing's (the Department's) response to
                the report entitled Colorado Claimed Unallowable Medicaid Inpatient Supplemental Payments for
                the review conducted by the Office of Inspector General (OIG) for federal fiscal years (FFYs)
                2009- 10,2010-11 , and 201 1-12. The OIG reviewed five inpatient supplemental p ayment
                programs totaling $1 ,457 ,319,962 in total funds or $807,923,956 federal share.

                The report includes a recommendation that the Department refund $2,659,550 to the fede ral
                governme nt for overpayments identified in FFY 20 11 -12 and determine and refund any amount
                paid incorrectly after the audit period. The Department concurs with the OIG's recommendations
                and has taken action to ensure that payments are made in accordance with the Department's
                approved Medicaid State Plan.


                 Sincer~             /..--7                         -·
                    ~~                                                                                              

                 Susan E. Birch, MBA,                  BS;~ 

                 ExecZ2 ~%}                           6~'-Ct/ 

                 SEB:nad

                 Enclosure




      1lle mission of the Department of Health Care Policy & Rnancing Is improving health care- access and outcomes fa the people we serve whUe demonstrating sound stewardship of financial
                                                                                           re sources:
                                                                                      co,orado.go~/hcpf




Colorado Medicaid Inpatient Supplemental P ayments (A -07-13-04206)                                                                                                                            7
                            Department of Health Care Policy and Financing Response 

               to Review ofColorado C laimed Unallowable Medicaid Inpatient Supplemental Payments 



            Recommendation 1: Refund $2,659,550 to the Federal Government.

               Department Response: The Department ofHealth Care Policy and Financing (the Department)
               agrees. The Department made overpayments in Federal Fiscal Year (FFY) 2011 -12 totaling
               $5,3 19, 100 ($2,659,550 federal share) to providers under the Metropolitan Statistical Area
               Medicaid Inpatient Supplemental Payment. The Department will recover the overpayment
               made to providers and refund $2,659,550 to the federal government within one ( I) year after
               the Office oflnspector General's (OIG's) fi nal audit report is publis hed.

            Recommendation 2: Determine the amount the State agency incorrectly paid after our audit
            period in program funds at $650 per Medicaid day and refund that amount to the Federal
            Government.

               Department Response: The Department agrees. The Department reviewed the Metropolitan
               Statistical Area Medicaid Inpatient Supplemental Payments made to providers in FFY 20 12­
               13 and found that those payments were also ca lculated at $650 per Medicaid day although the
               approved Medicaid State Plan indicated th e payments should be calculated at $600 per
               Medicaid day. (The D·~partment has a proposed State Plan Amendment for this payment for
               FFY 20 13- 14 which is currently under review with the Centers for Medicare and Medicaid
               Services.)

               The Department has determined that overpayments in FFY 201 2-1 3 totaling $5,409,000
               ($2,704,500 federal share) were made to providers. The Department will recover the
               overpayment made to providers and refund $2,70 4,500 to the federal government within one
               (l) year after the OIG '~ fmal audit report is publis hed.

            Recommendation 3: Ensure that the payment amounts specified in its CMS-approved State Plan
            are the amounts used to make payments.

                  Department Res12onse: The Department agrees. T he Department has implemented
                  additional levels of review during the State Plan Amendment submission and the payment
                  calculation finalization processes to ensure that all payments are made in accordance with
                  the approved State P la'1




             OIG Report N umber A-07-13-04206           February 28, 2014                      Page 1 of 1




Colorado Medicaid Inpatient Supplemental Payments (A -07-13-04206)                                             8
